OFFICE OF THE ATTORNEY GENERAL
Henry C. Whitaker
Solicitor General
PL-01 The Capitol
Tallahassee, FL 32399-1050
Phone (850) 414-3681
Fax (850) 410-2672
henry.whitaker@myfloridalegal.com

ASHLEY MOODY
ATTORNEY GENERAL
STATE OF FLORIDA

August 20, 2021
VIA ELECTRONIC DELIVERY
Honorable Scott S. Harris
Clerk of Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

City of Austin, Texas v. Reagan National Advertising of Austin, Inc., et
al., Case No. 20-1029

Dear Mr. Harris:
Please find enclosed forty copies of the Brief of Amici Curiae Florida,
Arkansas, California, Connecticut, District of Columbia, Illinois, Iowa, Maine,
Maryland, Massachusetts, Michigan, Minnesota, Mississippi, Nevada, New
Jersey, New York, Ohio, Oregon, Pennsylvania, South Dakota, Vermont, and
Washington in Support of Petitioner. If you require anything further, please
feel free to contact me.
Sincerely,
/s/ Henry C. Whitaker
Henry C. Whitaker
Counsel of Record
cc:

Renea Hicks
Kannon K. Shanmugam
J. Allen Smith
Brian J. Connolly
Amanda Kellar Karras
Cooke Wilson Kelsey
Counsel of Record

